No. X0-I3Z&
IN THE
SUPREME COURT OF THE UNITED STATES

Dale Sawyer Eiseie
Petitioner
V.

The Estate of Joseph Brodie Smith

filed
JAN n 2021
Sup

Respondent

On Petition for a Writ of Certiorari to The State of New Hampshire
9th Circuit-Probate Division- Nashua and the State New Hampshire
Supreme Court

PETITION FOR WRIT OF CERTIORARI

Dale Sawyer Eiseie
90 HoneypotRoad
West Haven, CT 06516
203 932 8454 Home Telephone Number
203 684 4018 Cell Telephone Number

QUESTIONS PRESENTED

The petitioner's request to exhume the body of Joseph Brodie
Smith to prove paternity thru DNA was denied by the lower
courts.
1.

Did interpreting this matter by using current adoption laws,
lead to a comprehension error that was detrimental to this
case.

2.

Did removing consideration for the petitioner's affidavit cause
a negative impact on the petitioners ability to support her
argument for an exhumation?

3.

Did the petitioners present legally sufficient reason to dis­
inter the body of Joseph Brodie Smith?

4.

Was the decision to not consider Gladys Irene as a pretermitted heir to Joseph Brodie

Smith detrimental to the petit-

i

tioner's goal of an exhumation to prove paternity?
5. Why didn't the petitioner provide any contact informati­
on for any immediate family members of Joseph Brodie Smi­
th to be granted permission for the exhumation?

ii

LIST OF PARTIES

Family members recognized by the State of New Hampshire
as having a legal standing to object to the exhumation are
deceased.

iii

TABLE OF CONTENTS
PAGE

QUESTIONS PRESENTED-----

i thru ii

LIST OF PARTIES------

iii

TABLE OF CONTENTS--------

tv thru vi

TABLE OF AUTHORITIES

vi thru viii

PETITION FOR WRIT OF CERTIORARI------

1

DECISION AND ORDER BELOW----------

1

JURSIDICTION —

1

STATEMENT OF CASE

2

I.

New Hampshire 9th CircuitProbate Division - Nashua
argues the adoption of
Gladys Irene severs legal
2-7

ties

iv

II.

New Hampshire 9th Circuit Probate Division - Nashua
argues the petitioner's
goaf of seeking residuat
rights failed legal standing-—

Ill.

8 thru 11

New Hampshire 9th CircuitProbate

Court - Nashua

ruled no legitimate reason

12 thru 14

for exhumation
IV.

New Hampshire 9th CircuitProbate Division - Nashua
not considering pretermit-

15 thru 18

ted heirs---------V.

New Hampshire 9th Circuit Probate Division - Nashua
claims

information

v

of

members of Smith's family
were not provided-----

19 thru 21

REASONS FOR GRANTING THE WRIT--------

22 thru 23

CONCLUSION

24

vi

TABLE OF AUTHORITIES
PAGES
CASES
Capello v. Flea Market U.S.A. Inc,

625 So. 2d 474 (Fla 3d DCA 1993)—

9 thru 10

Estate of Joseph Szekely, Deceased,Carol Jean
Szekely, Petitioner and Respondent v.

Los

Angeles County Physician's Aid Association
et al, Claimants and Appellants

104 Cal. App 3d 236 (1980), 163 Cal
18

Rptr. 506 Civ No 5718a

Fugate v. Allen

119 Mo. App 183,95b S. W. 980
(1906)-------------------------------

vii

18

Guitar v. Gordon
18

17 Mo. 408 (1853)
Korzybski v. Underwood and Underwood

367. 2d 727 {2d cir 1929)-------

14

Royce v. Denb/s Estate 117 N. H. 893 (1977)
379A 2d 1256 99 A. L R. 3d 718----South Korean Case of Kar Bos-----

10
6 thru 7

Towne v. Cottrell

235 Or. 151 (1963) 387P.2d 57&

17 thru 18

Zoda v. Hedden
596 So 2dl225,1226 (Fla 3d DCA

1993)

9 thru 10

viii

STATUTES

17C 222-1,2(1917)Minnesota-----

4 thru 6

NH RSA 551:10

10,16
AMENDMENT

20 thru 21

14™ Amendment Section 1

OTHER AUTHORnTTES

3

Childweifare.gov
Sawyer Families of New England 1636 — 2005
By Eleanor Grace Sawyer------United States copyright circular 33
Will of Joseph Brodie Smith-------

ix

10
13 thru 14
10,15 thru 18

TABLE OF CONTENTS APPENDIX

PAGE

DECISIONS

Notice of Decision New Hampshire
9th Circuit Probate Division - Nashua--------

1A thru 2A

Order New Hampshire 9th Circuit
Probate Division - Nashua —

3A thru 7A

New Hampshire Supreme Court Decision
8A thru 9A

May 18, 2020

New Hampshire Supreme Court Decision

lOAthru 11A

September 3, 2020

ADDRESS AND TELEPHONE NUMBERS OF
COURTS

x

12A

PETITION FOR A WRIT OF CERTIORARI
Petitioner Dale Sawyer Eiseie respectfully request the issue
of a writ of certiorari to review the judgement of State of New
Hampshire 9th Circuit-Probate Division-Nashua and the New
Hampshire Supreme Court.

DECISION AND ORDER BELOW
The decision of the New Hampshire 9th Circuit -Probate
Division-Nashua and the New Hampshire Supreme Court is on
Pet App pages 2A, 8A AND 11A. The order of the New Hamp­
shire 9th Circuit - Probate DivisiOn-Nashua is On Pet App pages 3A
thru 7A. The New Hampshire Supreme Court orders are on Pet
App 8A thru 11A.

JURISDICTION
The New Hampshire 9th Circuit - Probate Division -Nashua
entered judgement on January 16,2020 is on Pet App page 7A.
The New Hampshire Supreme Court entered judgement on May

18,2020 is on Pet App page 8A. The New Hampshire supreme
Court entered judgement on September 3,2020 is on Pet App
page 11A.

1

STATEMENT OF CASE

In 1903, Gladys Irene was born and in 1904 she was adop­
ted. However, there are several causes for concern over the legi­
timacy of the processes of her adoption.

These processes beco­

me relevant in present day because her granddaughter, Dale Saw­
yer Eisele is the petitioner seeking the exhumation of Gladys biol­
ogical father in order to assume the rights of inheritance that cur­
rently remain unclaimed. The petitioner outlined and submitted
a case to the Nashua Probate Court and the New Hampshire Supr­
eme Court with a clear objective and cause to conduct an exhum­
ation of Joseph Brodie Smith. Both requests were denied. Said ex­
humation is needed to establish paternity in order for the petiti­
oner to move forward in her enterprise.
I.

INTERPRETING THIS MATTER BY USING CURRENT
ADOPTION LAWS
The Nashua Probate Court argues that the adoption of Gl­

adys Irene severs the legal ties to the father, Joseph Brodie Smith.
In the order, the court writes, "The Court informed the petitioner

2

at the hearing that her great grandmother, by virtue of being ado­
pted, no fonger has a legal relationship with Joseph Brodie Smith"
(see Pet App page 7A) Gladys was in fact the petitioner's grand­
mother. Additionally, the court proceeded to explain the current
adoption process to the petitioner, citing the courts interpretat­
ion of current adoption laws. This can be exempted in the court's
order.

"The court has not (and will not for a number of reasons)

done research on the adoption laws of 1903." Court ruled "under
current law (and adoption for any time for which this judge is aw­
are)" (see Pet App page 6A ). Currently, childwelfare.gov states
(childwelfare page 2 and 3 )," all states. District of Columbia,
American Samoa, Guam, the Northern Mariana Islands, Puerto
Rico and the US Virgin Islands all applicants for adoption, wheth­
er single or couples adopting jointly must be included in the adop­
tion home study."Homestudies must include "at least 8 hours of
proadaptive training during the family assessment process" and
must include "one meeting with family and child every two mon­
ths prior to finalization". Working with a license child placing ag­
ency and doing "a finger print based criminal record check".
Additionally, projects supported by grants one being the National

3

Science Fund (NSF), book owned by the petitioner and the Minne­
sota State Law Library, Minnesota passed the first law 17c222-l,2
(year 1917) (General Statutes of Minnesota page l)mandating so­
cial investigation of all adoptions including home studies and pro­
viding for the confidently of adoption records. Gladys Irene was
bom 23 October 1903 and placed into an orphanage shortly after
birth according to the affidavit (signed and notarized page 1) sub­
mitted to the court by Dale Sawyer Eiseie. According to the stand­
ards of current adoption law, the procedures followed at the time
of Gladys Irene's adoption failed to meet the same legal standards
used by the court .The court cited only one step of current adop­
tion law to argue the court's interpretation. However, in order to
accurately hold the Minard adoption to modern - day - standards,
all aspects of the current adoption process must be examined. As
outlined above, it is apparent that the Minard adoption fails to comply with several of these processes. Thus, if held up to current
standards, the same standards the court cited to reach their deci­
sion, the adoption of Gladys Irene would be void in its entirety.
One segment cannot stand alone. All parts of the of the adoption
must stand or none at all.

Segments of the law cannot be ignor­

ed.
4

The adoption of Gladys Irene predates the first law man­
dating social investigations of all adoptions including home stu­
dies and providing for the confidentially of adoption records per
the information obtained through the document entitled, "Gen­
eral Statues of Minnesota", a compilation of laws from 1915-17,
this document includes the first law regulating "Adoption" It st­
ates " Consent when Necessary".
"Except as herein provided no adoption of a minor
shall be permitted without consent of his parents,
but the consent of a parent who has abandoned the
child or who cannot be found, or who is insane or
otherwise incapacitated from giving, such consent,
who has lost custody of the child through divorce
proceeding or order or juvenile court, may be
dispensed with and consent may be given by the
guardian, if there be one or if there be no guardian, by the state board of control."
"In case of illegitimacy the consent of the mother alone shall suf­
fice." "In all cases where child is over fourteen years old his own
consent must be had also." (General Statues of Minnesota amen-

5

ded 17c222-l). Gladys Irene's adoption took place in 1904 before
the laws above were implemented between 1915 and 1917 ^Gen­
eral Statues of Minnesota page 1).

Petitioner's reliance is on the case of Kara Bos who is a South Korean
6

girl bom in 1981, abandoned and adopted by an American couple in less than
a year later. South Korea accepts the American homestudy as sufficient documentation.The adoption of Kara Bos was legally finalized in America.Kara Bos
sued to prove that her assumed father was her biological father. This was the
first paternity case in South Korea done by international or overseas adoptee.
The Court of South Korea ordered a DMA on her assumed father. It was indeed
proven that her assumed father was her biological father. This Landmark case
was won in 2020. This decision has opened a floodgate for adoptees seeking to
find a biological parent thru DNA. The stage is set for adoptees to be officially
registered as children of the birthparent. Thus with implications for inheritance
or citizenship laws. Gladys Irene was adopted in 1904 before the Laws of Minn­
esota passed. Kara Bos was found abandoned as a two year old and less then a
year later adopted. She was born in 1981 long after the Laws of Minnesota wh­
ich was the first law regulating adoptions which included the confidentially
of records and consent.

7

II

REMOVING CONSIDERATION FOR THE PETITIONER
AFFIDAVIT CAUSE A NEGATIVE IMPACT
The Nashua Probate Court acknowledge the petitioner's g-

oal of seeking residual rights but failed to recognize the legal stan­
ding of pretermitted heir. A pretermitted heir is a person who wo­
uld likely stand to inherit under a will, the testator did not include
the person in the will. Such a predetermined decision to overlook
this factor would negate almost any counter argument for a exhu­
mation presented to the court.The objective of this argument is to
highlight the merit of the residual rights of the pretermitted heir,
rights that were overlooked by the Nashua Probate Court. The co­
urt also argues the adoption of Gladys Irene severs the legal relati­
onship with Smith. The court writes, "Joseph Brodie Smith, by
not being on the birth certificate of the petitioner's grandmother,
had not established paternity of the child"( see Pet App page 7A).
However, the court did not consider the petitioner's ability to
establish initial paternity by citing the affidavit she submitted to
the court. In her affidavit (signed and notarized affidavit (page 1).
Sawyer Eisele states:
"I asked if she "(Gladys Irene Denoncourt nee Sawyer, Minard

8

Denoncourt nee Sawyer, Minard, Sawyer, Gove) "knew who he"
(her biological father) "was, because she was adopted, she told
us yes. Then she told us his name and where he lived. She told
us that his name was Joseph Brodie Smith of Manchester New Hampshire." Although Smith's name does not appear on the
birth certificate of Gladys Irene, it is dear Sawyer Eisele has a firm
understanding of Smith being her biological great grandfather. In
this way, paternity can be establish beyond the stretch of simply
curiosity.2

Petitioner's reliance is on Zoda v, Hedden 596 So. 2dl225,1226 (Fla
2d DCA 1992) and Capellio vFlea Market U.S. A. Inc 625 So 2d 474 (Fla DCA

9

1993).Both affidavits were based on hearsay which is not admissible and does
not stand up to the legal threshold. As noted on the petitioner's affidavit a pic­
ture of Gladys Irene, her biological birthmother and her biological grandmot­
her was given to the petitioner. Again as noted on the petitioner's affidavit an
envelope was given that states Lillie Tinham (Gladys Irene's adopted mother's
Mary Minnard biological daughter). On this envelope was the name George
Williams. Joseph Brodie Smith has a brother named George William Smith. All
exhibits are evidence and are admissible. Royce v Denby's Estate 117 N.H. 893
(1977) 379A. 2d 1256,99 A. L R. 3d 718 states "New Hampshire RSA551:10
provides Every child bom after the decease of the Testator, and every child
or issue of a child of the deceased not named or referred to in his will and who
is not a devisee or legatee,shail be entitled to the same portion of the estate."
But then it goes on to say "real and personal, as he would be if the deceased
were intestate." See Pet App 5A which states " The birth certificate list the
father as "unknown" ". Her delivey doctor was Dr Charlotte Dodd Stewartson
who later married Joseph Brodie Smith. Exampled in the will of Joseph Brodie
Smith was his wife's name. The will states "J Brodie Smith and wife Doctor
Charlotte Stewartson Smith Fund". The petitioner also has a copy of Sawyer
Families of New England 1636-2005 by Eleanor Grace Sawyer. This book can be
Seen in many state libraries including the Connecticut State Library. This book
lists Lilia Sawyer ( Gladys Irene’s biological mother )as being Gladys Irene’s

10

biological mother and continues to the petioner. All evidence was brought to
the hearing by the petitioner as can be exampled " tremendous amount of re­
search" {see Pet App page 4A).

11

Ill

LEGITIMATE REASON FOR THE EXHUMATION OF JOSEPH
BRODIE SMITH
The court has ruled it saw no legitimate reason for the ex­

humation of Smith's body. In addition to the reasons given at the
hearing involving medical history, the main reason to request an
exhumation is to seek residual rights of inheritance from the de­
ceased. In this matter, forms of inheritance may extend bey­
ond cash. Yet the order written by the Nashua Probate Court ar­
gues "the court finds there is no legitimate reason for the request to exhume the body of Joseph Brodie Smith" { seePetApp
page7A). However the court goes on to acknowledge the petiti­
oner's goal of exploring rights of inheritance.
"Dale Sawyer Eisele informed the court that she
wished to exhume the body of her alleged great gr­
andfather for various reasons including to: establi­
sh a biological relationship with thedecendent
through his DNA, to see if there are any connect­
ed medical issues, and possibly to see whether the­
re are any residual rights of inhertance or other rig­
hts that would insure to her based on being the

12

biological issue of Joseph B. Smith" (see Pet App page
4A).
Here the court highlights the possibility any perspective right
but fails to entertain this notion further. One form of inheritance
can be exampled in a patent invented by Joseph Brodie Smith. US
Patent US1997979A, clock setting mechanism which was publish­
ed by the United States Patent Office on April 41935. The drawing
contained original expressions. That part of the patent can be co­
pyrighted by the next-of-kin which would be Sawyer Eisele, as Gl­
adys Irene, her son Clarence and Joseph Brodie Smith's childless
widow are deceased. By the court using such an encompassing st­
atement as seeing "whether these are any residual rights of in­
heritance". The court has opened the realm of possibility to expl­
ore any and all rights of inheritance available to the petitioner.
The petitioner stands to inherit copyrighting rights of his patent
US1997979A drawing, stocks, bonds, real estate and other mis­
cellaneous cash belonging to the deceased.

Note, such patent

drawings eligible for copyrighting would be considered assests
of immediate value for Sawyer Eisele to inherit.3 This stands as le­
gitimate reasons to reopen the estate of Joseph Brodie Smith.

3The petitioner's reliance is on United States copyright drcuiar 33 whi13

ch States "extends only to the original expressions contained in the in drawing
can copyrighted because it contains original expression contained and it does
not apply to the underlying invention. Additionally Korzybski v Underwood and
Underwood 36F. 2d 727 {2d cir 1929) dedicated it to the public which patent
US1997979A was not dedicated to the public.

14

IV

JOSEPH BRODIE SMITH'S ESTATE WAS INCORRECTLY
APPRAISED
Additionally the final value of Smith's Estate was incorr­

ectly appraised as $47.83, "after payment of expenses and debts
(including $31,623 in legacy and succession taxes) were a total
amount of $47.83. This amount was or should have been provid­
ed to the widow" (see Pet App page 5A). This figure was reached
after a brief review of the final accounting section of Smith's will.
The $47.54 was the cash on person of deceased at the
time of death paid to the

sole beneficiary per schedule

12 of the final accounting. However, this final count does not
include real estate, stocks and bonds, miscellaneous cash and of
course, patents owned by the deceased. Evidence of each of the­
se items are recorded, tallied and expressed in the will of Joseph
Brodie Smith as well as residual assets. Joseph Brodie Smith's will
was submitted to court by the petitioner. The court's decision
goes on to say: "there was a total amount remaining in the estate
of $47.83, all of which would go to the surviving spouse whether
the estate of Joseph Brodie Smith was testant (with a will) or int­
estate (without a will). If there were any children they would not

15

receive anything"(see Pet App page 6A and 7A).As previous stated
the State of New Hampshire recognizes pretermitted heirs, see
NH RSA 551:10 as heirs in this statue would have the same legal
standing to be entitled to the same portion of the deceased's est­
ate, including assets such as US Patent US1997979A. Note, th­
ere are no such clause in the will of Joseph Brodie Smith excluding
any possible heirs who the State of New Hampshire defines as
"pretermitted heirs". New Hampshire law requires that the heir
specifically named or referred to. If a child or grandchild is not na­
med or referred to in the will, and is not devisee or legatee, they
will take their share as if the estate was intestate. In this way, the
matter of Gladys Irene and Joseph Brodie Smith follows this outli­
ne of rightful inherence. Smith's will states:
"Should any beneficiary or beneficiaries under this
will endeavor in any way to contest this will or any
provisions thereof or the validity thereof in any
court or before any tribunal, such beneficiary or
beneficiaries shall thenceforth cease to have any
right, title or interest in or to any portion of

16

my estate or any property devised or bequeat­
hed hereunder, and any and all provisions of
this will in favor of such beneficiary or benefic­
iaries are hereby absolutely revoked, and any
and all rights and interests which such bene­
ficiary or beneficiaries would otherwise have
had hereunder shall fall into and become a pa­
rt of the residue of my estate hereinbefore re­
ferred to."
Such a clause does not omit a pretermitted heir. Because the pet­
itioner is not mentioned in the will as a beneficiary, 4she is not ch­
allenging Smith's will in a way that would disqualify her from pur­
sing residual right of inheritance.

'’Petitioner's reliance is on Town v Costrell 235 Or 151 (1963) 387 P.2d

17

576, Fugate v Alien 119 Mo. App 183,95. W. 980 (1906) and Guitar v Gordon
17 Mo. 408 (1853) all cases state that the mention of a deceased child in a will
was sufficient to avoid pretermission status as to the children of the deceased
child. These decisions rely on the fact that the deceased child was mentioned
in the will which is not the case of this lawsuit. Then

on Estate of Joseph

Szekely Deceased, Carol Jean Szekely, Petitioner and Respondent v Los Angeles
County Physician's Ais Association et al. Claimants and Appellants 104 Cal. App
3d 236 (1980), 163 Cal Rptr.506 Ov No. 57180 state "Pretermitted heirs do not
contest or challenge a will but take in spite of it, and thus, a no-contest clause
alone cannot be construed as demonstrating an intent to disinherit a child."
if the will mentions "heirs" that is "insufficient to bar a permitted heir." The
court states "die law is clear, therefore, that a disinheritance clause expressly
omitting heirs indicates an intent to bar children or grandchildren". In Joseph
Brodie Smith Will it states "beneficiary or beneficiaries" and heirs. Heirs who
inherit are children, descendants or dose relatives v benefitiaries are written
on a will or documents to be the recipients of the assets. Gladys Irene and her
next-of kin would be heirs. A dause was not induded in the will stating that
Gladys Irene was removed from being a heir, making her and her next-of-kin
pretermitted heirs.

18

V

CLAIMS THAT NO MEMBERS OF SMITH FAMILY WERE
CONTACTED
Furthermore, the Nashua Probate Court claims no membe­

rs of the Smith family were contacted prior to the hearing "The
petitioner did not provide contact information for any legal fa­
mily members of Joseph B. Brodie, so no family members was no­
tified " { see Pet App page 4A ).

However, no members of the

Smith family were contacted because all family members reco­
gnized by the State of New Hampshire as having a legal stand­
ing to object to the exhumation are deceased.

This makes Dale

Sawyer Eisele the next-of-kin to Joseph Brodie Smith. Originally,
the Nashua Probate Court instructed Sawyer Eisele to complete
the "Administering an Estate" packet (Administering an Estate
page 1 thru 19). Upon completing said packet,

Sawyer Eisele

contacted the Probate Court again to ask if further lineage beyond
beyond the packet was needed, which she was willing to provide.
It was during said telephone call; the court retracted the request
for the complete packet and instructed her to submit only a brief
packet and then instructed her to submit only a brief abridge line­
age starting at the deceased and ending with his great grandchild

19

of which Sawyer Eiseie is his great granddaughter. This new lina­
ge document was submitted to the court and signed for and recei­
ved on 27 November 2019 (Linage Letter page 1). The court had a
opportunity to review the completed packet. 5Had the court not
broken this protocol, the court would have been able to have
a dear understanding of the unique rircumstances of this matter.

Petitioner’s reliance is on the 14th Amendment section 1 and the right
20

to be treated equally by the law and the court system. The New Hampshire
9th Circuit - Probate Division- Nashua originally instructed Dale Sawyer Eisefe
to complete the "Administering an Estate packet" which outlines the measures
that must be taken to notify family members of the deceased. However, given
the historic nature of this case. Sawyer Eisele contacted the Nashua Probate
Court and was told not to submit the list of family members as printed in the
"Administering an Estate". As exampled in the letter written by the Petitioner
and signed for by the court a brief abridged linage was sent This abridged
letter ended with "If you have any questions please contact me with above
information. Thank you in advance." The petitioner never was contacted
about this abridged linage letter. Had the court followed the procedure, they
would have had a complete understanding of why no family members were
contacted and this would not have been a reason to deny the petitioner's requ­
est for an exhumation.

21

REASONS FOR GRANTING THE WRIT
In the following argument, the petitioner, Dale Sawyer Eisele, outlines her goal is to prove paternity between herself and
her biological great grandfather, Joseph Brodie Smith. It can be
concluded that the only way for paternity to be proven with abso­
lute certainty is by conducting an exhumation on the body of Jos
eph Brodie Smith and testing their DNA. In her argument, the pe­
titioner examples her legitimate reasons for requesting an exhum­
ation.
The main legitimate reason for the exhumation is to pursue inheritance from Joseph Brodie Smith. This case is unique due to
the many forms of inheritance that go beyond simple cash. Most
notably the deceased leaves behind a patent he invented as we­
ll as its drawing. The drawing is able to be copyrighted by next-ofkin which would be Sawyer Eisele.
The petitioner also presents arguments that explain why
the adoption of Gladys Irene, Smith's child and the petitioner's gr­
andmother, is not a reason to disqualify her from pursing said inh­
eritance. The petitioner examples how the Nashua Probate Court
was selective in how the court interpreted the adoption of Gladys
Irene's adoptionin 1904. The petition proves that if the adoption

22

was held to all standards of modem day laws, as the court has
partially done, the adoption would not stand to be valid.

23

CONCLUSION
Dale Sawyer Eisele respectfully requests that this Court issue a
writ of certiorari.

Respectfully,

Dale Sawyer Eisele

Petitioner

Date
j>rl

24

